                                           UNITED STATES DEPARTMENT OF EDUCATION 

                                                OFFICE OF INSPECTOR GENERAL 

                                                                       REGION V 

                                                               III NORTH CANAL, SUITE 940 

                                                                 CHICAGO, ILLINOIS 60606 


                                                                      FAX: (312) 353-0244 

    Audit 

                                                                                                                                              Investigation
(312) 886-6503                                                                                                                               (312) 353-n91



                                                                                                       SEP 11 2003
                                                                                                               r
                 MEMORANDUM

                 TO: 	             Susan Sclafani 

                                   Acting Assistant Secretary for Vocational and Adult Education 


                                     C'"
                             . RYc~-+>~
                            (----:-J (.
              FROM: 

                                   Regional Inspector General for Audit 


              SUBJECT: 	 FINAL AUDIT REPORT
                         Audit ofIndiana's Management Controls Over Perkins III Performance
                         Data (Control Number ED-OIGI A05-D0012)

              You have been designated as the action official responsible for the resolution of the
              findings and recommendations in the attached final report. We have also provided a copy
              to the auditee and to your Audit Liaison Officer.

              The Office ofInspector General is required to review and approve your proposed
              Program Determination Letter (PDL) and the Audit Clearance Document (ACD) before
              the PDL is forwarded to the auditee. Please provide these documents for review,
              electronically if you wish or by mail, to:

                         Richard J. Dowd 

                         Regional Inspector General for Audit 

                         U.S. Department of Education 

                         Office ofInspector General 

                         111 N. Canal Street, Suite 940 

                         Chicago, IL 60606-7204 


              In accordance with the Inspector General Act of 1978, as amended, the Office of
              Inspector General is required to report to Congress twice a year on the number of audits
              unresolved. In addition, any report unresolved after 180 days from the date of issuance
              will be shown as overdue in our reports to Congress.

              In accordance with the Freedom ofInformation Act (5 U.S.C. §552), reports issued by
              the Office of Inspector General are available, if requested, to members of the press and
              general public to the extent information contained therein is not subject to exemptions in
              the Act.



                           Our mission is to ensure equal access to education and to promote educational excellence throughout the Nation.
If you have any questions, please contact me at 312-886-6503.

Attachment

cc: Helen Taylor, Audit Liaison Officer, OVAE
              Audit of Indiana’s Management Controls 

                Over Perkins III Performance Data





                             FINAL AUDIT REPORT 

                         Control Number ED-OIG/A05-D0012 

                                   September 2003 





Our mission is to promote the efficiency,          U.S. Department of Education
effectiveness, and integrity of the                Office of Inspector General
Department’s programs and operations.              Chicago, Illinois
                                      NOTICE
 Statements that managerial practices need improvements, as well as other conclusions
  and recommendations in this report represent the opinions of the Office of Inspector
General. Determinations of corrective action to be taken will be made by the appropriate
                         Department of Education officials.

 In accordance with Freedom of Information Act (5U.S.C. §552), reports issued by the
  Office of Inspector General are available, if requested, to members of the press and
general public to the extent information contained therein is not subject to exemptions in
                                         the Act.
                                           UNITED STATES DEPARTMENT OF EDUCATION
                                                OFFICE OF INSPECTOR GENERAL
                                                                     REGION V 

                                                             III NORTH CANAL, SUITE 940 

                                                               CHICAGO, ILLINOIS 60606 
                                                                      I
                                                                    FAX: (312) 353-0244 

     Audit 
                                                                                                                                  Investigation
(312) 886-6503                                                                                                                               (312) 353-7891

                                                                                                               ED-OIGIAOS-D0012

                 Alan Degner
                 Commissioner
                                                                                                            SEP 11 2003
                 Indiana Department of Workforce Development
                 Indiana Government Center South 

                 10 North Senate Avenue 

                 Indianapolis, IN 46204-2277

                 Dear Mr. Degner:

                 Enclosed is our final report entitled Audit of Indiana's Management Controls Over
                 Perkins III Performance Data. If you have any comments or information that you believe
                 may have a bearing on the resolution of this audit, you should send them directly to the
                 following Education Department official, who will consider them before taking final
                 Departmental action on the audit:

                                              Susan Sclafani, Acting Assistant Secretary
                                              Office of Vocational and Adult Education
                                              U.S. Department of Education
                                              Mary E. Switzer Building
                                              Room 4090
                                              330 C Street, S.W.
                                              Washington, DC 20202-7100

                 It is the policy of the U. S. Department of Education to expedite the resolution of audits
                 by initiating timely action on the findings and recommendations contained therein.
                 Therefore, receipt of your comments within 30 days would be greatly appreciated.

                 In accordance with the Freedom ofInformation Act (5 U.S.C. §552), reports issued by
                 the Office of Inspector General are available, if requested, to members of the press and
                 general public to the extent information contained therein is not subject to exemptions in
                 the Act.

                                                                    Sincerely,

                                                              (


                                                                    Regional Inspector General
                                                                    for Audit

                 Enclosure

                       Our mission is to promote the efficiency, effectiveness, and integrity of the Department's programs and operations.
Table of Contents
Audit of Indiana’s Management Controls Over Perkins III
Performance Data
Control Number ED-OIG/A05-D0012
                                                                      Page
Executive Summary                                                       1


Audit Results
      Finding 1 - The Indiana Department of Workforce Development 

      Lacks Adequate Management Controls to Ensure Perkins III 

      Performance Data are Complete, Accurate, and Reliable 
           2


Background                                                              6


Objective, Scope, and Methodology                                       7


Statement on Management Controls                                        8


Appendix A:     Performance Sub-Indicators Reviewed


Appendix B: Definitions of Selected Indiana Department of Workforce
                Development’s Performance Sub-Indicators

Appendix C:     The Universe and Number of Students Sampled at
                Each Local Agency by Sub-Indicator
Final Audit Report	                                                                ED-OIG/A05-D0012


                                     Executive Summary
Our objective was to assess the management controls at the Indiana Department of
Workforce Development (DWD) and local agencies to ensure that the performance data
reported1 to the U.S. Department of Education (ED) for the Carl D. Perkins Vocational
and Applied Technology Education Act, Public Law 105-332 (Perkins III) for program
year 2000-2001 were complete, accurate, and reliable.

DWD and the three local agencies we audited lacked adequate controls to ensure its final
Perkins III performance data were complete, accurate, and reliable. DWD lacked
adequate input, processing, and output controls. The local agencies lacked adequate
input controls. DWD and the local agencies also lacked written policies and procedures
describing the controls used to ensure data are complete and accurate. DWD’s Perkins
III consolidated annual report to ED for program year 2000-2001 was neither complete,
accurate, nor reliable. Specifically, our audit disclosed that

      ●	 Inadequate data input controls at DWD and three local agencies we audited
         resulted in inaccurate data. Data testing at one postsecondary and two
         secondary local agencies disclosed error rates of approximately 7 and 17
         percent, respectively.

      ●	 Inadequate processing controls resulted in DWD using incomplete data and
         inaccurate processing logic to calculate Perkins III performance measurements.

      ●	 Inadequate output controls allowed DWD to report incomplete and inaccurate
         Perkins III results to ED.

To ensure data reliability, we recommend that the Assistant Secretary for Vocational and
Adult Education ensure DWD

      ●	 Develops and implements data input controls including controls at the State and
         local level to ensure that the data are entered accurately;

      ●	 Develops and implements processing controls including controls to ensure data
         are complete and processing logic is accurate;

      ●	 Develops and implements output controls; and

      ●	 Develops and distributes written policies and procedures to ensure Perkins III
         performance data are complete, accurate, and reliable.

Comments to our draft audit report were due from the DWD by August 6, 2003. The
Vocational Technical Education Director informed us that we had sufficiently discussed
the findings during the audit and DWD would not provide any written comments.
Therefore, we issued this final report without auditee comments.

1
  See Appendix A for a list of the performance sub-indicators we reviewed and Appendix B for definitions
of the sub-indicators.

                                                   1
Final Audit Report                                                                 ED-OIG/A05-D0012



                                          Audit Results
This report presents the results of our audit of the management controls over DWD’s
Perkins III performance data. Our objective was to assess the management controls at
DWD and local agencies to ensure that the Perkins III performance data reported2 to ED
for the program year 2000-2001 were complete, accurate, and reliable.

DWD provided secondary local agencies with either the Indiana Student Reporting
System or the Indiana Technical Education Student Reporting System software to
facilitate data collection. Secondary local agencies collected required vocational student
data and provided it to DWD. Postsecondary local agencies used the Student Information
System software3 to collect vocational student data and provide it to the Indiana
Commission on Higher Education (Commission). The Commission oversaw
postsecondary data collection, compiled and reviewed the data, and reported it to DWD.
DWD oversaw collecting secondary data. DWD processed all the data, compiled the
report, and submitted it to ED.

Finding No. 1 - The Indiana Department of Workforce Development Lacks
Adequate Management Controls to Ensure Perkins III Performance Data are
Complete, Accurate, and Reliable

DWD and the three local agencies we audited lacked adequate controls to ensure its final
Perkins III performance data are complete, accurate, and reliable. DWD lacked adequate
input, processing, and output controls. DWD relied on one person to collect, review, and
input data; prepare computer programming; process data; obtain summary results; and
report the results to ED. The local agencies lacked adequate input controls. DWD and
the local agencies also lacked written policies and procedures describing the controls
used to ensure data were complete and accurate. As a result, the DWD’s Perkins III
consolidated annual report to ED for program year 2000-2001 (July 1, 2000, through
June 30, 2001) was neither complete, accurate, nor reliable.

The Perkins III law enacted October 31, 1998, Part A, Section 113 (a) & (c) requires each
agency that receives a Perkins III allotment to establish a state performance
accountability system and annually submit to the Secretary a report regarding the
progress of the state in achieving the state adjusted levels of performance on the core
indicators of performance. In addition, Part B, Section 122 (c)(20) requires that the state
plan include information that describes how the eligible agency will ensure that data
reported to the Secretary are complete, accurate, and reliable.

The Core Indicator Framework (January, 2000), developed by ED’s Office of Vocational
and Adult Education, provides additional guidance on reporting performance indicators.
Section 2.3 describes five general quality criteria for performance measurement and data


2
  See Appendix A for a list of the performance sub-indicators we reviewed and Appendix B for definitions

of the sub-indicators.

3
  We audited local agencies each using one of the three different data collection software. 


                                                   2
Final Audit Report	                                                       ED-OIG/A05-D0012


collection: validity, reliability, cost-effectiveness, system-focused, and management
utility.

The first two quality criteria of the Core Indicator Framework, validity and reliability, are
respectively defined as "the degree to which the performance measurement approach
directly and fully measures the student outcomes at an appropriate time interval," and
"the degree to which performance measurement is conducted in a consistent manner
using . . . effective management information systems for insuring data quality." The third
quality criterion, cost-effectiveness, promotes using systems that "provide the highest
quality data at the lowest possible costs." Data input, processing, and output controls are
needed to provide reasonable assurance that data are valid and reliable but the cost of the
controls should not outweigh the benefits they provide.

Inadequate Input Controls
DWD and the three local agencies lacked adequate input controls to ensure data were
entered accurately. Without controls to ensure data are accurate, DWD cannot ensure
that the output is valid. DWD and the two secondary local agencies we audited relied on
one person to input all data. They therefore lacked segregation of duties; a control to
ensure data are entered accurately. DWD and all three local agencies lacked data input
review procedures. The postsecondary agency compensated for the lack of input controls
by relying heavily on detective and corrective controls. However, these controls did not
adequately compensate for the lack of data input controls.

Approximately 7 percent of the postsecondary and 17 percent of the secondary student
data reviewed contained one or more data errors. These errors included erroneous school
codes, Classification of Instructional Program codes, Social Security Numbers, student
levels, race indicators, and Indiana Statewide Testing for Educational Progress results.
Better controls would reduce the number of errors in data input.

DWD informed us it will conduct additional training to ensure local agencies have more
than one person trained to input data. It will also implement a policy to ensure
segregation of duties and review of input data. DWD will implement these procedures
beginning with the 2003-2004 school year. DWD personnel will also visit local agencies
to ensure all policies and procedures are being followed.

Inadequate Processing Controls
DWD lacked adequate processing controls to ensure data processing was properly
performed. Processing controls ensure data are valid and reliable. DWD relied on one
person to program the processing and prepare data for processing. DWD did not require
any review or approval prior to or during processing. The lack of review procedures
resulted in incomplete data and incorrect processing logic.

DWD used the following types of incomplete data to compile Perkins III performance
indicators for the 2000-2001 program year.

●	 The data DWD processed for one of the secondary local agencies did not show any
   graduates for the 2000-2001 reporting period. The Indiana Student Reporting
   software that the local agency used during the 2000-2001 reporting period did not

                                              3

Final Audit Report	                                                                  ED-OIG/A05-D0012


     allow the local agency to input graduation data. Instead, the local agency provided
     DWD paper documentation indicating students’ graduation data. We could not
     determine if DWD failed to enter this information into its database or an error
     occurred during processing. In either case, the processed data did not show any
     graduates for the local agency.

●	 The data DWD processed did not contain all programs reported by one of the local
   secondary agencies we audited. The local agency provided programs to students
   from schools in several local communities at its location (managed students). The
   schools in these communities also provided technical education programs at their
   locations (non-managed students). The schools reported the data for the non-
   managed students to the local agency, which in turn entered the data into its database.
   However, DWD’s processed data did not show any data for non-managed students
   for the 2000-2001 reporting period.

●	   DWD processed incomplete race information provided by the Commission for some
     postsecondary students. DWD did not obtain race data for 27 of 100 randomly
     selected students at the postsecondary institution we audited. The postsecondary
     institution provided complete student race information to the Commission. The
     Commission did not provide all the student records to DWD in the specified record
     layout. Because DWD did not have processing controls to check for complete and
     appropriate data, it processed the incomplete data and used it to report on the Perkins
     III performance indicators.

DWD’s processing logic for determining Perkins III performance indicators for the 2000­
2001 program year did not provide accurate results.

●	 Applying the same processing logic used by DWD for the 1S1 performance indicator
   to the data submitted by one of the secondary local agencies, we determined that
   DWD reported 3 students who should not have been reported for that performance
   indicator. We also determined that DWD did not report 24 students who should have
   been included.

●	 DWD included non-Perkins III programs4 in the Perkins III performance indicators
   reported to ED. The local agencies input data for other programs in addition to the
   vocational education programs. DWD’s processing logic should have excluded the
   Classification of Instructional Program codes for these other programs. One of these
   codes, which DWD officials said was excluded, began with the first four digits of
   “2001”. However, 602 records with this Classification of Instructional Program code
   were included in the data reported to ED. Therefore, the logic did not exclude these
   codes and DWD reported inaccurate data.

Because DWD compiled performance indicator measurements using incomplete data and
incorrect processing logic, the measurements cannot fully or accurately reflect the actual
results or outcomes.

4
  The non-Perkins III programs were vocational education programs that were not eligible for Perkins III
funding.

                                                    4
Final Audit Report	                                                    ED-OIG/A05-D0012



DWD informed us that it would require all secondary agencies to use the Indiana
Technical Education Student Reporting System software that allows local agencies to
capture graduation data. DWD has also implemented a new Oracle® based data storage
and reporting system for the 2001-2002 program year. According to DWD, the reporting
logic for all core indicators has been tested and approved by multiple DWD employees
and approved by the Commission. DWD believes this review and approval process will
ensure reports are reliable and accurate.

Inadequate Output Controls
DWD lacked adequate output controls to ensure the accuracy and completeness of the
processing results. Output controls assure report validity and reliability. As with
inputting and processing, DWD relied on one person to produce all output data and did
not require any review or approval of the data prior to reporting it to ED. If DWD had
adequate output controls in place during the 2000-2001 program year, it may have
detected some of the problems caused by the lack of adequate input and processing
controls.

DWD informed us it has already started the process of implementing controls to ensure
the output is complete and accurate. DWD expects to have these controls in place at the
beginning of the 2003-2004 school year.

Lack of Written Policies and Procedures
DWD and the three local agencies lacked written policies and procedures that describe
controls used to ensure data are complete and accurate. Written policies and procedures
are a control technique that help to ensure validity and reliability.

DWD informed us it has already started the process of implementing written policies and
procedures. DWD expects to have written policies and procedures in place at the
beginning of the 2003-2004 school year.

As a result of inadequate controls, the 2000-2001 Perkins III performance indicators
DWD reported to ED were neither complete, accurate, nor reliable. ED could potentially
rely on inaccurate and incomplete data to assess program results and make programmatic
decisions that may negatively impact program participants. In addition, ED could
potentially report inaccurate and incomplete information to Congress.

Recommendations
We recommend that the Assistant Secretary for Vocational and Adult Education ensure
DWD

1.1 	   Develops and implements data input controls including controls at the State and
        local level to ensure that the data are entered accurately;

1.2 	   Develops and implements processing controls including controls to ensure data
        are complete and processing logic is accurate;

1.3 	   Develops and implements output controls; and

                                            5
Final Audit Report	                                                         ED-OIG/A05-D0012



1.4 	       Develops and distributes written policies and procedures to ensure Perkins III
            performance data are complete, accurate, and reliable.

                                          Background
The Carl D. Perkins Vocational and Applied Technology Education Amendments of
1998, Public Law 105-332, was signed into law on October 31, 1998, and is administered
by ED’s Office of Vocational and Adult Education. The purpose of Perkins III is to
develop more fully the academic, vocational, and technical skills of secondary and
postsecondary students who elect to enroll in vocational and technical education
programs. ED allots funds to the states based on a formula which takes into account each
state’s population in certain age groups and its per capita income. States distribute funds
to secondary and postsecondary local agencies (for example, school districts, technical
institutions, and community colleges) in accordance with an approved state plan.

Perkins III requires the state plan to identify specific measures and targeted levels of
performance. States must establish a performance accountability system to assess
effectiveness and track their achievements for four core performance indicators:

        •   student attainment;
        •   credential attainment;
        •   placement and retention; and
        •   participation in and completion of non-traditional programs.

There are specific sub-indicators required under each core indicator but states can also
add additional performance indicators to their plans. A state’s level of Perkins III
performance is defined as a percentage, based on the number of students in the numerator
and denominator for each sub-indicator. States must report performance levels to the
Secretary annually. States that exceed agreed upon performance levels for three
programs: (1) Perkins III, (2) the Adult Education and Family Literacy Act, and (3) Title
I of the Workforce Investment Act, are eligible for additional incentive grants.

DWD expended $22.4 million in basic Perkins III grant funds and was awarded an
additional $2.8 million in incentive grant funds under the Workforce Investment Act for
the 2000-2001 program year.




                                                 6

Final Audit Report	                                                                 ED-OIG/A05-D0012



                           Objective, Scope, and Methodology
Our objective was to assess the management controls at DWD and local agencies to
ensure that the performance data reported to ED for Perkins III were complete, accurate,
and reliable. Our audit covered performance data for Perkins III funds awarded during
program year 2000-2001 (July 1, 2000, through June 30, 2001).

To achieve our objective, we reviewed DWD’s reported performance data for the
numerator and denominator of eight sub-indicators.5 We visited DWD and three local
agencies to review the data collection and reporting procedures for the Perkins III
performance data. At DWD, we:

1. 	 Interviewed State agency officials to obtain an understanding of the data collecting,
     processing, and reporting procedures for the Perkins III performance data.
2. 	 Obtained the definitions for the eight performance indicators selected for review.
3. 	 Flowcharted the data collection process for the Perkins III performance data.
4. 	 Compared data DWD reported to ED to DWD’s data.
5. 	 Determined how DWD used the collected performance data.
6. 	 Reviewed selected aspects of the audit report prepared in accordance with Office of
     Management Budget Circular A-133, Audits of States, Local Governments, and Non-
     Profit Organizations.
7. 	 Compared selected local agencies' data to the data reported by DWD.

We judgmentally selected 3 local agencies (2 secondary and 1 postsecondary) from 47
secondary and 29 postsecondary local agencies, based on the type of software used to
collect Perkins III performance data. During visits to the local agencies, we:

1. 	 Interviewed local agency officials to obtain an understanding of the data collection
     process for the Perkins III performance data.
2. 	 Flowcharted the data collection process for the Perkins III performance data.
3. 	 Reviewed selected aspects of the audit report prepared in accordance with Office of
     Management Budget Circular A-133, Audits of States, Local Governments, and Non-
     Profit Organizations.
4. 	 Tested the accuracy and completeness of reported performance data for 311 randomly
     selected students from a universe of 2,273 unique students. Unique students were
     selected for testing purposes. However, students generally were counted for one or
     more performance sub indicators.6
5. 	 Determined how each local agency used the collected performance data.

In addition to interviewing DWD and local agency officials, we also interviewed
Commission and ED personnel.


5
  See Appendix A for a list of the performance sub-indicators we reviewed and Appendix B for definitions

of the sub-indicators.

6
  See Appendix C for the universe and the number of students sampled at each local agency by sub-

indicator.


                                                    7
Final Audit Report                                                      ED-OIG/A05-D0012


To achieve our objective, we relied on computer-processed data contained in DWD’s and
three local agencies’ computer systems. We assessed the general and application controls
at each entity. We also assessed the reliability of the data by (1) comparing the data to
student records (accuracy), (2) reviewing program code DWD used to develop reported
data (accuracy), (3) determining if data for all schools were included in the reported data
(completeness), and (4) determining if all fields contained appropriate data
(completeness). We used the data to select our sample to test student records. Based on
our testing, we concluded the data were not reliable. The data problems and their effects
are fully discussed in the Audit Results section of this report.

We performed our field work from January 6, 2003, through May 2, 2003. We
performed the majority of our field work at DWD and three local agencies. We also
performed additional analysis in our office. We held an exit conference with DWD on
May 14, 2003.

We conducted our audit in accordance with generally accepted government auditing
standards appropriate to the scope of the review described above.


                            Statement on Management Controls
We have made a study and evaluation of the management control structure of DWD and
three selected local agencies in effect for program year 2000-2001. Our study and
evaluation was conducted in accordance with generally accepted government auditing
standards. For the purpose of this report, we assessed and classified the significant
management control structure into the following categories:

●         Data Collection7

●         Database Compilation

●         Determining Summary Results

●         Report Preparation

The management of DWD and three selected local agencies is responsible for
establishing and maintaining a management control structure. In fulfilling this
responsibility, estimates and judgments by management are required to assess the
expected benefits and related costs of control procedures. The objectives of the
management control structure are to provide management with reasonable, but not
absolute, assurance that program performance is properly assessed and measured and that
data are recorded in accordance with management’s authorization, so as to permit
effective and efficient operations.

Because of inherent limitations in any management control structure, errors or
irregularities may occur and not be detected. Also, projection of any evaluation of the

7
    Local agencies only had the data collection category.

                                                       8
Final Audit Report                                                     ED-OIG/A05-D0012


system to future periods is subject to the risk that procedures may become inadequate
because of changes in conditions, or that the degree of compliance with the procedures
may deteriorate.

Our assessment disclosed conditions in the management control structure of DWD and
three local agencies in effect for program year 2000-2001 which, in our opinion, result in
more than a relatively low risk that errors or irregularities in amounts that would be
material in relation to reported information may occur and not be detected within a timely
period. These weaknesses and their effects are fully discussed in the Audit Results
section of this report.




                                            9

Final Audit Report                                                          Appendix A 

ED-OIG/A05-D0012                                                             Page 1 of 1 


                           Performance Sub-Indicators Reviewed
As part of our audit, we reviewed the following Indiana Department of Workforce
Development performance sub-indicators8.

Secondary
• Secondary Academic Attainment (1S1)

•     Secondary Vocational & Technical Skill Attainment (1S2)

•     Secondary Completion (2S1)

•     Secondary Placement (3S1)


Postsecondary
• Postsecondary Academic Attainment (1P1)

•     Postsecondary Vocational & Technical Skill Attainment (1P2)

•     Postsecondary Completion (2P1)

•     Postsecondary Placement (3P1)




8
    See Appendix B for the definitions of the sub-indicators.
Final Audit Report                                                                             Appendix B 

ED-OIG/A05-D0012                                                                                Page 1 of 2 


       Definitions of Selected Indiana Department of Workforce 

              Development’s Performance Sub-Indicators 

Core Indicator 1 – Student Attainment
         Sub-Indicator                            Numerator                           Denominator
1S1 - Academic Attainment             Number of vocational education       Number of vocational education
                                      students who passed the              students who took the ISTEP+
                                      ISTEP9+ Graduation Qualifying        Graduation Qualifying Exam and
                                      Exam and have left secondary         have left secondary education in
                                      education in the reporting year.     the reporting year.
1S2 - Skills Proficiencies            Number of students who passed        Number of students who were
                                      a vocational education program       tested for skill mastery in a
                                      skill test and have left secondary   vocational education program and
                                      education in the reporting year.     have left secondary education in
                                                                           the reporting year.
1P1 - Academic Attainment             Number of postsecondary              Number of postsecondary students
                                      students who complete                who complete occupationally
                                      occupationally specific programs     specific programs and have left
                                      and have a cumulative grade          postsecondary education in the
                                      point average of at least 2.5 on a   reporting year.
                                      4.0 grading system and have left
                                      postsecondary education in the
                                      reporting year.
1P2 - Skills Proficiencies            Number of students who               Number of students who complete
                                      complete occupationally specific     occupationally specific programs
                                      programs, who have met               and who have stopped program
                                      program-defined and industry         participation postsecondary
                                      validated career and technical       education in the reporting year.
                                      skill standards, and have stopped
                                      program participation in
                                      postsecondary education in the
                                      reporting year.

Core Indicator 2 – Credential Attainment
        Sub-Indicator                             Numerator                          Denominator
2S1 – Completion                      Number of vocational education       Number of vocational education
                                      program completers who have          program completers who have left
                                      attained a high school diploma       secondary education in the
                                      or its recognized equivalent and     reporting year.
                                      have left secondary education in
                                      the reporting year.
2P1 – Completion                      The number of full-time,             Number of postsecondary students
                                      beginning, first year students       who enrolled in occupationally
                                      who enroll in occupationally         specific programs as degree
                                      specific programs as degree          seeking students and left
                                      seeking students and attain a        postsecondary education within
                                      postsecondary degree or              three years.
                                      credential within three years.




9
    Indiana Statewide Testing for Educational Progress
Final Audit Report                                                                 Appendix B 

ED-OIG/A05-D0012                                                                    Page 2 of 2 




Core Indicator 3 – Placement and Retention
          Sub-Indicator               Numerator                           Denominator
3S1 - Placement           Number of students who have          Number of students who have
                          completed a vocational               completed a vocational education
                          education program and received       program and received a high
                          a diploma or its equivalent in the   school diploma or its equivalent
                          reporting year, and were placed      and left secondary education in
                          in further education or advanced     the reporting year.
                          training, employment, and/or
                          military service.
3P1 - Placement           Number of postsecondary              Number of postsecondary students
                          students who have completed          who have completed
                          occupationally specific programs     occupationally specific programs
                          and are placed in further            and left postsecondary education
                          education, or employment within      in the reporting year.
                          Indiana, or National military
                          service in the reporting year.
Final Audit Report                                                                            Appendix C
ED-OIG/A05-D0012                                                                               Page 1 of 1



The Number of Students Sampled and Universe at Each Local Agency by Sub-
Indicator

Number of Students Sampled at Each Local Agency by Sub-Indicator

                        Sub-Indicators                                                              Total
Local Agency            1S1      1S2     2S1      3S1        1P1    1P2       2P1       3P1         Sampled
Elkhart Area        N      56       24      64       25
Career Center       D      65       25      69       28                                                      356
J. Everett Light    N      78       76       0        9
Career Center       D      81       78      64       10                                                      396
Ivy Tech State      N                                          34         1         0         48
College             D                                          35         4         6         51             179
Total Sampled              280     203      197      72        69         5         6         99             931



Universe of Students at Each Local Agency by Sub-Indicator

                        Sub-Indicators
Local Agency            1S1      1S2     2S1      3S1        1P1    1P2       2P1       3P1         Total
Elkhart Area        N     370      166     384      113
Career Center       D     417      178     414      134                                                 2,176
J. Everett Light    N     321      334       0       61
Career Center       D     338      338     302       79                                                 1,773
Ivy Tech State      N                                         368     14        29            451
College             D                                         419     61       100            474       1,916
Total                    1,446   1,016    1,100     387       787     75       129            925       5,865
